NO.

 

IN THE SUPREME COURT OF THE UNITED STATES
JOSHUA D. MYERS, Petitioner,
vs.

STATE OF GEORGIA, Respondent.

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
COMES NOW the Petitioner, Mr. Joshua D. Myers; and, pursuant to Sup. Ct.
Rule 39.1, asks for leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.
1) In pre-trial and trial proceedings, Petitioner was represented by appointed
counsel due to his indigent status. See, O.C.G.A. ยง 15-1-5; Uniform
Superior Court Rule 29.2; Hawkins v. State, 222 Ga. App. 461 (1996).
2) The Gwinnett County Superior Court in Georgia appointed the
undersigned to represent Petitioner on appeal. See, O.C.G.A. ยง 15-1-5;
Uniform Superior Court Rule 29.2. A copy of the appointment order is
attached as Exhibit 1.
3) Petitioner remains indigent and wishes to pursue a writ of certiorari from
this Court to the Court of Appeals of Georgia, which affirmed his judgment

of conviction on October 22, 2019 and denied his motion for
reconsideration on November 4, 2019. The Georgia Supreme Court denied
his petition for a writ of certiorari on June 29, 2020.
WHEREFORE, Mr. Myers asks this Court to grant his motion and allow him
to proceed in forma pauperis.
Dated this 27th day of November, 2020.

Respectfully submitted,

Mewmcea Wu

FRANCES KUO

Supreme Court Bar No. 299215
Frances Kuo

214 Executive Building

125 East Trinity Place

Decatur, GA 30030

Tel: (404) 378-1241
kuoappeal@gmail.com

Counsel for Mr. Joshua D. Myers
EXHIBIT 1

   
  

FILED IN OFF
CLERK SUPERIOR,
TWEE? COUNTY
IN THE SUPERIOR COURT OF GWINNETT COUNTY PARE COUNT

STATE OF GEORGIA TGOCT 28 PH 1:35
STATE OF GEORGIA, : RICHARD ALi AARDER, CLERK
Vv.
CASE NO. 15-B-1359-4

JOSHUA MYERS, : Appeal

Defendant.

APPOINTMENT OF COUNSEL FOR INDIGENT PERSON

The person named above has satisfied the Court that she/he is financially unable
to employ an attorney and does not waive representation by an attorney.

Henceforth, the attorney designated below shall represent the person and the
appointment shall remain in effect through all courts in the circuit until the case is
completed or another attorney is appointed by the Court or retained.

Frances Kuo
Bar #430440
214 Executive Bldg
125 East Trinity Place
Decatur, GA 30030
phone: 404 378-1241

SO ORDERED this__27th _ day of

 

RANDY RICH
Judge, Superior Court of Gwinnett County

Copies via email to:
District Attorney
Frances Kuo, Atty
Scott Estes, Trial Attorney
AOC: .

Page | of 1

 
